HHS/OIG, Audit - "Mutual of Omaha's Medicare Final Administrative Cost
Proposals for Fiscal Years 2004 Through 2006," (A-07-07-01041)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Mutual of Omaha's
Medicare Final Administrative Cost Proposals for Fiscal Years 2004 Through
2006," (A-07-07-01041)
November 1, 2007
Complete Text of Report is available in PDF format (309 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Mutual reported
expenditures that substantially complied with the Federal Acquisition Regulation
and the Medicare contract provisions.  However, Mutual reported, in its cost
proposals, $1,266 that was not allowable.  These costs were for entertainment
($840) and lobbying ($426), and as such, did not meet the criteria for Federal
reimbursement.  We recommended that Mutual
refund to the Federal Government the $1,266 of unallowable costs.  Mutual agreed
with our findings.